No. 19-431
In the

Supreme Court of the United States
THE LITTLE SISTERS OF THE POOR
SAINTS PETER AND PAUL HOME,
Petitioner,
v.
THE COMMONWEALTH OF PENNSYLVANIA
AND THE STATE OF NEW JERSEY, et al.,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Third Circuit
BRIEF OF AMICI CURIAE UNITED STATES
CONFERENCE OF CATHOLIC BISHOPS; NATIONAL
ASSOCIATION OF EVANGELICALS; THE CHURCH
OF JESUS CHRIST OF LATTER-DAY SAINTS; THE
ETHICS & RELIGIOUS LIBERTY COMMISSION OF
THE SOUTHERN BAPTIST CONVENTION; THE
LUTHERAN CHURCH–MISSOURI SYNOD; CHURCH
OF GOD IN CHRIST, INC. AND COUNCIL FOR
CHRISTIAN COLLEGES & UNIVERSITIES
IN SUPPORT OF PETITIONER

A lexander Dushku
R. Shawn Gunnarson
Counsel of Record
James C. Phillips
K irton | McConkie
36 South State Street, Suite 1900
Salt Lake City, Utah 84111
(801) 328-3600
sgunnarson@kmclaw.com
Counsel for Amici Curiae

i
QUESTION PRESENTED
Amici will address the following question: Whether
the federal government lawfully exempted religious
objectors from the regulatory requirement to provide
health plans with contraceptive coverage.

ii
TABLE OF CONTENTS
Page
QUESTION PRESENTED  . . . . . . . . . . . . . . . . . . . . i
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . iii
INTERESTS OF AMICI CURIAE  . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . 1
ARGUMENT  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
I.

The Decision Below Conflicts in Principle
with Zubik v. Burwell  . . . . . . . . . . . . . . . . . . . 4

II. The Decision Below Directly Conflicts with
Burwell v. Hobby Lobby Stores, Inc.  . . . . . . . . 9
III. The Question Presented Holds National
Importance . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

iii
TABLE OF CITED AUTHORITIES
Page
Cases
Brush & Nib Studio, LC v. City of Phx.,
448 P.3d 890 (Ariz. 2019)  . . . . . . . . . . . . . . . . . . 20
Burwell v. Hobby Lobby Stores, Inc.,
573 U.S. 682 (2014)  . . . . . . . . . . . . . . . . . . . passim
California v. U.S. Dep’t of Health & Human
Servs.,
Nos. 19-15072, 19-15118, 19-15150, 2019
WL 5382250 (9th Cir. Oct. 22, 2019)  . . . . . . . . . 19
City of Boerne v. Flores,
521 U.S. 507 (1997) . . . . . . . . . . . . . . . . . . . . . . . 17
Corp. of the Presiding Bishop of The Church of
Jesus Christ of Latter-day Saints v. Amos,
483 U.S. 327 (1987) . . . . . . . . . . . . . . . . . . . . . . . 18
Cutter v. Wilkinson,
544 U.S. 709 (2005) . . . . . . . . . . . . . . . . . 12, 17, 18
Dierlam v. Trump,
No. 4:16-CV-307, 2017 WL 7049573
(S.D. Tex. Nov. 21, 2017)  . . . . . . . . . . . . . . . . . . . 20
Employment Div., Dept. of Human Resources of
Oregon v. Smith,
494 U.S. 872 (1990) . . . . . . . . . . . . . . . . . . . . 12, 15

iv
Cited Authorities
Page
Geneva College v. Secretary U.S. Department of
Health & Human Services,
778 F.3d 422 (3d Cir. 2015) . . . . . . . . . . . . . . . 8, 11
Gertz v. Robert Welch, Inc.,
418 U.S. 323 (1974)  . . . . . . . . . . . . . . . . . . . . . . . 17
Gonzales v. O Centro Espirita Beneficente
Uniao do Vegetal,
546 U.S. 418 (2006) . . . . . . . . . . . . . . . . . . . . . . . 17
Hernandez v. Comm’r of Internal Revenue,
490 U.S. 680 (1989) . . . . . . . . . . . . . . . . . . . . . . . 16
Hutto v. Davis,
454 U.S. 370 (1982) . . . . . . . . . . . . . . . . . . . . . . . . 3
Kiyemba v. Obama,
559 U.S. 131 (2010)  . . . . . . . . . . . . . . . . . . . . . . . . 6
Kiyemba v. Obama,
605 F.3d 1046 (D.C. Cir. 2010)  . . . . . . . . . . . . . . . 6
Madison County v.
Oneida Indian Nation of New York,
562 U.S. 42 (2011) . . . . . . . . . . . . . . . . . . . . . . . . . 6
NLRB v. Catholic Bishop of Chi.,
440 U.S. 490 (1979) . . . . . . . . . . . . . . . . . . . . . . . 16

v
Cited Authorities
Page
O’Connor v. Donaldson,
422 U.S. 563 (1975) . . . . . . . . . . . . . . . . . . . . . . . . 9
Oneida Indian Nation of New York v.
Madison Cty.,
665 F.3d 408 (2d Cir. 2011) . . . . . . . . . . . . . . . . . . 6
Real Alts., Inc. v. Sec’y Dep’t of Health
& Human Servs.,
867 F.3d 338 (3d Cir. 2017) . . . . . . . . . 8, 11, 19, 20
Snyder v. Phelps,
562 U.S. 443 (2011) . . . . . . . . . . . . . . . . . . . . . . . 17
Thomas v. Review Bd. of Ind. Emp’t Sec. Div.,
450 U.S. 707 (1981)  . . . . . . . . . . . . . . . . . 11, 12, 16
United States v. Ballard,
322 U.S. 78 (1944) . . . . . . . . . . . . . . . . . . . . . . . . 16
W. Va. State Bd. of Educ. v. Barnette,
319 U.S. 624 (1943) . . . . . . . . . . . . . . . . . . . . . . . 16
Zubik v. Burwell,
136 S. Ct. 1557 (2016)  . . . . . . . . . . . . . . . . . passim
Statutes
26 U.S.C. 4980D(a)–(b) . . . . . . . . . . . . . . . . . . . . . . . . 9

vi
Cited Authorities
Page
42 U.S.C. 2000bb-1(b) . . . . . . . . . . . . . . . . . . . . . 10, 15
42 U.S.C. 2000bb(a)(5) . . . . . . . . . . . . . . . . . . . . . . . 17
Regulations
26 C.F.R. 54.9815-2713(a)(1)(iv) . . . . . . . . . . . . . . .  1-2
29 C.F.R. 2590.715-2713(a)(1)(iv) . . . . . . . . . . . . . . . . 1
45 C.F.R. 147.130(a)(1)(iv) . . . . . . . . . . . . . . . . . . . . . . 1
82 Fed. Reg. 47,792 (Oct. 13, 2017)  . . . . . . . . . . . . . . 5
83 Fed. Reg. 57,536 (Nov. 15, 2018) . . . . . . . . . . . . 5, 6
Other Authorities
Carl. H. Esbeck, Do Discretionary Religious
Exemptions Violate the Establishment
Clause?, 106 Ky. L.J. 603
(2018) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Stephen M. Shapi ro et al ., Supreme
Court Practice (11th ed. 2019) . . . . . . . . . . . . . . . . . . . 3
J o s e p h S t o r y, C o m m e n t a r i e s o n t h e
C o n s t i t u t i o n o f t h e Un i t e d S t a t e s
§ 167 (Carolina Acad. Press 1987) (1833) . . . . . . . . . . 3

1
INTERESTs OF AMICI CURIAE1
Amici are a diverse group of religious organizations
committed to defending the integrity of the Religious
Freedom Restoration Act (RFRA). Some amici actively
participated in the effort to enact RFRA in 1993 and
to amend it in 2001. We are submitting this brief out
of a concern that the Third Circuit’s decision, unless
reviewed and reversed, will severely diminish RFRA’s
effectiveness as a protection for religious communities
and people of faith.
SUMMARY OF ARGUMENT
The need for review is compelling because the
Third Circuit’s decision conflicts with Zubik v. Burwell,
136 S. Ct. 1557 (2016) (per curiam) and Burwell v.
Hobby Lobby Stores, Inc., 573 U.S. 682 (2014). Like
them, this case asks whether RFRA protects religious
employers such as Petitioner Little Sisters of the Poor
Peter and Paul Home (Little Sisters) from federal
regulations requiring most large employers to include
contraceptive coverage in their healthcare plans. See
45 C.F.R. 147.130(a)(1)(iv) (U.S. Department of Health
& Human Services); 29 C.F.R. 2590.715-2713(a)(1)(iv)
(U.S. Department of Labor); 26 C.F.R. 54.9815-2713(a)
1. Pursuant to Supreme Court Rule 37.6, amici state that
no counsel for any party authored this brief in whole or in part
and that no entity or person, aside from amici, their members,
and their counsel, made any monetary contribution toward the
preparation or submission of this brief. Pursuant to Supreme
Court Rule 37.2, amici certify that counsel of record for all
parties received notice of the intent to file this brief at least 10
days before it was due and have consented to this filing.

2
(1)(iv) (U.S. Department of the Treasury). In holding
that RFRA offers no relief, App. 48a, the decision below
contradicts this Court’s precedents.
The Third Circuit’s departures from the principle of
vertical precedent are evident. Where Zubik encourages
the government and religious objectors to identify a
compromise approach that would end years of litigation,
the decision below voided the rule that the government
adopted in a good faith effort to comply with Zubik’s
mandate. The decision below deepened that conflict
by relying on a prior circuit decision that Zubik
vacated. Left unreviewed, the Third Circuit’s decision
will thwart Zubik’s effort to facilitate a voluntary
compromise.
Conflicts between the decision below and Hobby
Lobby are direct and no less troubling.
The Third Circuit interpreted RFRA’s substantial
burden requirement as an invitation to probe the
reasonableness of petitioner’s religious objection. But
Hobby Lobby forecloses that inquiry. It holds that under
RFRA a substantial burden depends on how much force
the government exerts, not on whether the religious
objection is persuasive or even plausible.
Another grave conf lict appears in the Third
Circuit’s treatment of third-party harm as a sufficient
reason to deny a RFRA claim. Hobby Lobby rejects that
notion. It explains that RFRA’s compelling-interest test
carefully balances religious freedom with competing
interests, including third-party harm. By allowing
third-party harm to supplant Congress’s balancing test,
the decision below urgently calls for review.

3
The multiple conflicts created by the decision
below present “one of the strongest possible grounds”
for review. Stephen M. Shapiro et al., Supreme Court
Practice 4–20 (11th ed. 2019). By disregarding Zubik
and Hobby Lobby, the court of appeals transgressed
a cardinal principle of our federal system—that “a
precedent of this Court must be followed by the lower
federal courts no matter how misguided the judges of
those courts may think it to be.” Hutto v. Davis, 454
U.S. 370, 375 (1982) (per curiam); see also Joseph Story,
Commentaries on the Constitution of the United States
§ 167 (Carolina Acad. Press 1987) (1833) (“[J]udicial
decisions of the highest tribunal * * * are considered,
as establishing the true construction of the laws, which
are brought into controversy before it.”).
The Third Circuit’s decision also holds national
importance. RFRA applies to every aspect of federal
law—including the contraceptive mandate. Yet
without this Court’s intervention, the decision below
will defeat “the government’s admirable effort to
accommodate religious liberty.” Pet. 2. The court of
appeals has affirmed a nationwide injunction blocking
the enforcement of a regulatory accommodation that
seeks to end eight years of litigation. Review is needed
to bring finality to this corrosive dispute. Beyond that,
the lower court’s misreading of RFRA threatens to
undercut every sort of claim under the statute, both
within the Third Circuit and elsewhere. In fact, the
Ninth Circuit recently followed the Third Circuit’s lead
in a nearly identical case. Given the national importance
of the questions presented, review is warranted even
without the conflicts we describe. A final decision by
a federal appellate court that hollows out the Nation’s

4
leading civil rights law protecting religious freedom
should not be permitted to stand.
ARGUMENT
I. The Decision Below Conflicts in Principle
with Zubik v. Burwell.
A . T he T hird Circuit voided a reg ulator y
accommodation that conscientiously followed this
Court’s directions in Zubik. By doing so, the decision
below ignored Zubik’s limitations on litigation regarding
the application of the contraceptive mandate to religious
employers. A brief review of Zubik and subsequent
developments puts that conflict into sharp relief.
Following oral argument in Zubik, this Court
ordered supplemental briefing. See Zubik, 194 L. Ed.
2d 599 (Mar. 29, 2016). The government conceded
that the mandate “could be modified” to accommodate
sincere religious objections raised by Little Sisters
and other religious employers to the self-certification
procedure. See Suppl. Brief of Respondents at 14–15,
Zubik v. Burwell, 136 S. Ct. 1557 (2016) (No. 14-1418).
The employers agreed that a modification could remove
the burden on their religious exercise. See Suppl. Brief
of Petitioners at 1, Zubik v. Burwell, 136 S. Ct. 1557
(2016) (No. 14-1418).
These assurances, amounting to a “substantial
clarification and refinement” of the parties’ positions,
led the Court to vacate the lower-court judgments
and to remand. Zubik, 136 S. Ct. at 1560. The Court
directed that “the parties on remand should be afforded

5
an opportunity to arrive at an approach going forward
that accommodates petitioners’ religious exercise
while at the same time ensuring that women covered
by petitioners’ health plans receive full and equal
health coverage, including contraceptive coverage.”
Ibid. (internal quotation marks omitted). To facilitate
that approach, the courts of appeals were instructed
to “allow the parties sufficient time to resolve any
outstanding issues between them.” Ibid. And since
the litigation itself registered the employers’ religious
objections, the Court barred the government from
“impos[ing] taxes or penalties on petitioners for failure
to provide the relevant notice.” Id. at 1561.
Both the fourth interim final rule (IFR) and the
final rule reflect the government’s effort to comply
with Zubik’s remand instructions. As the IFR noted,
Zubik “instructed the parties to consider alternative
accommodations for the objecting plaintiffs, after the
Government suggested that such alternatives might be
possible.” 82 Fed. Reg. 47,792, 47,799 (Oct. 13, 2017).
In keeping with that suggestion, the relevant federal
agencies concluded that “the most appropriate approach
to resolve these concerns is to expand the exemptions
* * * while maintaining the accommodation as an option
for providing contraceptive coverage, without forcing
entities to choose between compliance with either the
Mandate or the accommodation and their religious
beliefs.” 83 Fed. Reg. 57,536, 57,544 (Nov. 15, 2018).
This approach satisfies petitioner’s objections. Although
some critics quibble that expanding the exemption and
making the accommodation optional will reduce access
to contraception, the government responded that it
“has other means available to it for increasing women’s

6
access to contraception,” including “means [that] are
less restrictive of religious exercise” than enforcing
the contraceptive mandate against religious objectors.
Id. at 57,551. Adopting a less restrictive means of
making contraception accessible is necessary because
the government acknowledged that forcing a religious
employer to choose between its faith and the contrary
terms of the mandate or the accommodation “imposes a
substantial burden on religious exercise under RFRA.”
Id. at 57,546.
The decision below conf licts with Zubik by
neglecting its directive to let the parties resolve their
differences voluntarily. That conflict is apparent by
contrasting the decision below with the vacate-andremand precedent cited in Zubik. Following this Court’s
remand in Madison County v. Oneida Indian Nation
of New York, 562 U.S. 42, 42 (2011) (per curiam), the
Second Circuit reversed its earlier decision because of
a party’s changed legal position. See Oneida Indian
Nation of New York v. Madison Cty., 665 F.3d 408,
414 (2d Cir. 2011). And following a remand in Kiyemba
v. Obama, 559 U.S. 131, 132 (2010) (per curiam), the
D.C. Circuit noted that “[i]n compliance with the
Supreme Court’s mandate we held further proceedings.”
Kiyemba v. Obama, 605 F.3d 1046, 1047 (D.C. Cir. 2010)
(emphasis added). But the D.C. Circuit reinstated its
earlier judgment because the government admitted
that the information that this Court relied on when
remanding the case on “was not completely accurate.”
Ibid.
Unlike Madison County, the Third Circuit here did
not reverse its earlier decision once the government
changed its legal position. And unlike Kiyemba, the

7
Third Circuit appears not to have regarded the remand
order in Zubik as a mandate at all. Instead, the court
invoked a decision that this Court vacated to justify
rejecting the government’s defense of a regulatory
accommodation that Zubik all but invited.
Lower courts have no authority to reopen legal
issues that this Court has decided. Yet the decision
below presumed that Zubik was mistaken. Where Zubik
rests on an understanding that the Affordable Care
Act permits the government to accommodate religious
employers, the lower court ruled that the statute
contains no such authority. See App. 38a–43a. And even
though Zubik remanded for the government to identify
a less restrictive means of applying its mandate, the
court of appeals held that RFRA does not require the
relief that Little Sisters seeks. See App. 48a. Fortified
with these conclusions, the Third Circuit determined
that there was no room for the parties to negotiate
any outcome besides the pre-Zubik self-certification
process. See ibid. (“[T]he status quo prior to the new
Rule, with the Accommodation, did not infringe on the
religious exercise of covered employers, nor is there a
basis to conclude the Accommodation process infringes
on the religious exercise of any employer.”). By this
logic, neither the Court’s vacate-and-remand order in
Zubik nor the regulatory solutions that closely tracked
the positions presented to this Court in Zubik had any
legal foundation.
For these reasons, the decision below conflicts at
least in principle with Zubik.
That conflict is especially troubling because the
Third Circuit’s decision vitiated the vacate-and-remand

8
device used in Zubik. This device allows the Court to
resolve cases without a decision on the merits when
a party makes an admission that opens the door to
voluntary settlement. Unless lower courts allow parties
to resolve their differences on the terms contemplated
by such a remand order, that device will become largely
ineffective.
B. The Third Circuit further departed from the
principle of vertical precedent by relying on a decision
that this Court vacated. In Zubik, the Court “vacate[d]
the judgments below,” 136 S. Ct. at 1560, including the
Third Circuit’s decision in Geneva College v. Secretary
U.S. Department of Health & Human Services, 778
F.3d 422 (3d Cir. 2015). Yet the decision below treated
Geneva College as valid precedent because, in its view,
Zubik “vacated our judgment in Geneva but did not
attack our reasoning.” Real Alts., Inc. v. Sec’y Dep’t
of Health & Human Servs., 867 F.3d 338, 356 n.18
(3d Cir. 2017). On that basis, the court of appeals
quoted Geneva College to bolster its critical ruling
that “the submission of the self-certification form does
not make the [employers] ‘complicit’ in the provision
of contraceptive coverage.” App. 46a (quoting Geneva
College, 778 F.3d at 438).
The Third Circuit’s reliance on Geneva College
was no mere technical flaw. It resurrected a precedent
that Zubik deliberately cleared away. In doing so,
the decision below transgressed the vital principle of
adherence to this Court’s vacatur orders. A decision
by this Court “vacating the judgment of the Court of
Appeals deprives that court’s opinion of precedential
effect, leaving this Court’s opinion and judgment as

9
the sole law of the case.” O’Connor v. Donaldson, 422
U.S. 563, 577 n.12 (1975). By resisting that principle,
the Third Circuit’s decision is at odds with Zubik.
II. The Decision Below Directly Conflicts with
Burwell v. Hobby Lobby Stores, Inc.
A. The Third Circuit likewise ignored Hobby
Lobby’s interpretation and application of RFRA’s
substantial burden standard.
The court of appeals improperly revisited an issue
resolved by this Court in Hobby Lobby, 573 U.S. at
682. It holds that the same regulatory mandate that
affects Little Sisters in this case substantially burdens
the religious exercise of objecting employers. Pointing
to the multi-million-dollar fines the government was
authorized to exact for noncompliance, the court
concluded that “[i]f these consequences do not amount
to a substantial burden, it is hard to see what would.”
Id. at 691.
Little Sisters faces the same financial risks. Its
operation of a single home in Pittsburgh with 67
employees subjects Little Sisters to annual fines of
$2,445,500 for failure to comply with the mandate.
See 26 U.S.C. 4980D(a)–(b) (noncompliant health care
plans subject to daily fines of $100 per employee). Yet
the court below spent pages analyzing whether the
mandate substantially burdens Little Sisters’ religious
exercise. See App. 44a–47a. Revisiting that question
failed to give Hobby Lobby conclusive effect.

10
True, Hobby Lobby reserved the question whether
the self-certification process contested by Little
Sisters here “complies with RFRA for purposes of
all religious claims.” 573 U.S. at 731. But the Court
reached that question as part of its analysis of RFRA’s
least-restrictive-means standard—not as part of its
substantial burden analysis. See id. at 728–31. The
Third Circuit discussed the validity of the final rule and
its self-certification predecessor without acknowledging
Hobby Lobby’s starting point that the contraceptive
mandate imposes a substantial burden on objecting
religious employers. See App. 44a–45a.2
The court of appeals did not avoid this conflict by
shifting focus to the adequacy of different religious
accommodations. See App. 45a–46a. RFRA treats
the issue of substantial burden separately from the
adequacy of any government accommodation under
the least-restrictive-means standard. See 42 U.S.C.
2000bb-1(b). Since Hobby Lobby decides the issue of
substantial burden with respect to the contraceptive
mandate, the court of appeals contradicted this Court
by reaching the opposite conclusion.
The Third Circuit further rejected Hobby Lobby by
invoking the substantial-burden standard as a license
to assess the weight of Little Sisters’ religious objection.
See App. 44a n.28 (insisting on the authority to conduct
2. Zubik noted in passing that the Court there did not
“decide whether [religious employers’] religious exercise has
been substantially burdened.” 136 S. Ct. at 1560. But Hobby
Lobby had already decided that the regulatory mandate
challenged in Zubik and here imposed a substantial burden on
religious exercise. See Hobby Lobby, 573 U.S. at 691.

11
an “objective evaluation of the nature of the claimed
burden and the substantiality of that burden”) (quoting
Real Alts., 867 F.3d at 356). Hobby Lobby rebuffs that
intrusive approach, but the court below tried to justify
it anyway by quoting at length from a prior decision
that Zubik vacated. The religious objection was invalid,
the court said, because the self-certification form that
Little Sisters cannot submit in good conscience actually
“‘does not trigger or facilitate’” contraceptive coverage
or “make the [employers] ‘complicit’ in the provision of
contraceptive coverage.” App. 45a–46a (quoting Geneva
Coll., 778 F.3d at 437–48). Having downplayed Little
Sisters’ theological concerns, the court concluded that
“any possible burden from the notification procedure
is not substantial.” App. 46a (citing Geneva Coll., 778
F.3d at 442).
By sitting in judgment on Little Sisters’ religious
objection, the decision below directly collides with
Hobby Lobby. It rejects any attempt to “tell [objecting
employers] that their beliefs are flawed.” 573 U.S. at 724.
Under RFRA, a reviewing court’s “narrow function” is
to decide whether the religious objection expresses
“an honest conviction.” Id. at 725 (quoting Thomas v.
Review Bd. of Ind. Emp’t Sec. Div., 450 U.S. 707, 716
(1981)). Because there is no dispute that Little Sisters’
religious objections to the contraceptive mandate and
the self-certification process are sincere, RFRA does
not authorize further judicial inquiry into the content
of those objections. Yet the Third Circuit brushed aside
Little Sisters’ objection to the self-certification form
as insubstantial. See App. 45a–46a.3 That conclusion
3. Even if the factual basis for Little Sisters’ religious
objection were relevant, their concern with complicity is wellfounded. The government has conceded that submitting the self-

12
cannot be reconciled with Hobby Lobby, which held
that RFRA precludes a court from asking “whether the
religious belief asserted in a RFRA case is reasonable.”
573 U.S. at 724.4
The decision below contradicts Hobby Lobby’s
holdings on RFRA’s substantial burden standard twice
over. The Third Circuit neglected the Court’s holding
that the contraceptive mandate imposes a substantial
burden on religious exercise, and it rejected Little
Sisters’ religious objection as insubstantial. The court
of appeals further deepened these conflicts by relying
on a decision that the Court vacated in Zubik.
B. The court of appeals also embraced an approach
to third-party harm under RFRA that Hobby Lobby
repudiated.
The Third Circuit ruled that third-party harm is a
consideration for any claim under RFRA. App. 45a (“The
Supreme Court has directed that, when considering a
requested accommodation to address the burden, courts
must take adequate account of the burdens a requested
accommodation may impose on nonbeneficiaries.”)
(quoting Cutter v. Wilkinson, 544 U.S. 709, 720 (2005)).
certification form enables employees to receive contraceptive
coverage from the employer’s own health care plan. See Brief
of Respondents at 38, Zubik v. Burwell, 136 S. Ct. 1557 (2016)
(No. 14-1418).
4. Hobby Lobby also rejected a judicial inquiry into the
plausibility of a RFRA claimant’s religious objection as offensive
under the First Amendment. See 573 U.S. at 724–25 (citing

Employment Div., Dept. of Human Resources of Oregon

v. Smith, 494 U.S. 872, 887 (1990); Thomas, 450 U.S. at 715).

13
The court of appeals then rejected the agencies’ final
rule in part because it “would impose an undue burden
on * * * the female employees who will lose coverage
for contraceptive care.” App. 47a. Remarkably, the
Third Circuit supported this conclusion by quoting the
dissenting opinion in Hobby Lobby. See App. 47a–48a
(quoting 573 U.S. at 764 (Ginsburg, J., dissenting)).
With that faulty premise, the court held that the preZubik religious accommodation adequately satisfies
RFRA because it “provides a means for an observer to
adhere to religious precepts and simultaneously allows
women to receive statutorily-mandated health care
coverage.” App. 45a.5
Granting notions of third-party harm power to
derail any RFRA claim directly conflicts with Hobby
Lobby. It held that RFRA does not give the government
“an entirely free hand to impose burdens on religious
exercise so long as those burdens confer a benefit on
other individuals.” 537 U.S. at 729 n.37. Although
courts applying RFRA must account for the effect of a
religious accommodation on others, such effects “will
often inform” the application of the compelling-interest
and least-restrictive-means analysis. Ibid. But this
concern for the impact of a religious accommodation
on others has a logical stopping point:
[I]t could not reasonably be maintained that
any burden on religious exercise, no matter
how onerous and no matter how readily
the government interest could be achieved
5. The decision below also pointed to the avoidance of
third-party harm as a reason for finding that the nationwide
injunction serves the public interest. See App. 49a.

14
through alternative means, is permissible
under RFRA so long as the relevant legal
obligation requires the religious adherent to
confer a benefit on third parties.
Ibid. Allowing third-party harm to defeat a RFRA
claim, outside the compelling-interest test, would
render RFRA “meaningless.” Ibid. The government—
or anyone else challenging the assertion of RFRA, for
that matter—could evade the statute by “framing any
Government regulation as benefitting a third party,”
thereby transforming the regulation into an entitlement
“to which nobody could object on religious grounds.”
Ibid.
The decision below flouted this Court’s interpretation
of RFRA. Where Hobby Lobby rejects third-party harm
as a consideration independent of the compellinginterest test, the Third Circuit treated it as a sufficient
reason to deny Little Sisters’ RFRA claim. By relying
on the dissenting opinion in Hobby Lobby to justify
an elevated role for third-party harm, the court of
appeals expressed its disagreement conspicuously. See
App. 47a–48a (quoting 573 U.S. at 764 (Ginsburg, J.,
dissenting)).
III. The Question Presented Holds National
Importance.
A. The conflicts between the decision below and
this Court’s precedents are far from merely technical;
they go to the foundation of RFRA’s legal framework.
Leaving that decision unreviewed threatens to
undermine the Nation’s leading civil rights statute
protecting religious freedom.

15
RFRA’s demands are unambiguous. The federal
government “may substantially burden a person’s
exercise of religion only if it demonstrates that
application of the burden to the person * * * is in
furtherance of a compelling governmental interest
and is the least restrictive means of furthering that
compelling interest.” 42 U.S.C. 2000bb-1(b) (punctuation
altered and subsections removed). The decision below
corrupted this framework, first, by allowing a court to
question the plausibility of a religious objection and,
second, by supplanting the compelling-interest test
with an outcome-determinative inquiry into third-party
harm.
1. RFRA does not invite courts to pass judgment
on the relative weight or seriousness of a religious
objection. Instead, the statute requires a court to
determine whether the contested government act
“substantially burden[s]” religious exercise. Ibid. This
standard obliges a court to determine whether the
law exerts substantial force or pressure on religious
exercise—not whether the claimant’s religious belief
is substantial. See Hobby Lobby, 573 U.S. at 725–26.
Even if the statute were unclear on this point, the
First Amendment prohibits a court from adjudicating
the reasonableness of a RFRA claimant’s religious
objection, as the Third Circuit did. See App. 45a–46a.
“Repeatedly and in many different contexts, [this
Court has] warned that courts must not presume to
determine the place of a particular belief in a religion
or the plausibility of a religious claim.” Smith, 494 U.S.
at 887. The free exercise of religion is incompatible with
an official evaluation of religious belief to determine

16
whether it is sufficiently credible or substantial to
warrant legal protection. See United States v. Ballard,
322 U.S. 78, 86 (1944). A court may not substitute
its own understanding of a religious belief or duty
for the view sincerely articulated by a believer. See
Hernandez v. Comm’r of Internal Revenue, 490 U.S.
680, 699 (1989). And a court does not avoid trespassing
into forbidden territory by confining its inquiry to
questions of rationality and consistency. See Thomas,
450 U.S. at 714. The “very process of inquiry” into
the reasonableness or plausibility of religious belief
“impinge[s] on rights guaranteed by the Religion
Clauses.” NLRB v. Catholic Bishop of Chi., 440 U.S.
490, 502 (1979). Declaring that Little Sisters’ religious
beliefs were mistaken, as the Third Circuit did, App.
45a–46a, presumes an illicit authority to “prescribe
what shall be orthodox in * * * religion.” W. Va. State
Bd. of Educ. v. Barnette, 319 U.S. 624, 642 (1943).
Neither the Third Circuit’s probing of petitioner’s
religious beliefs nor its conclusion that those beliefs
were mistaken can be reconciled with the fundamental
right to the free exercise of religion.
2. The Third Circuit’s other error is no less
significant. Denying a RFRA claim because of asserted
third-party harm overthrows the balancing test
prescribed by Congress. RFRA accounts for harms to
third parties through its balancing test rather than
through a categorical rule. See Hobby Lobby, 537 U.S.
at 729 n.37 (third-party harm is a “consideration [that]
will often inform the analysis of the Government’s
compelling interest and the availability of a less
restrictive means of advancing that interest”).

17
Letting third-party harm compel the outcome of a
RFRA claim subverts the statute’s command to apply
“the most demanding test known to constitutional law.”
City of Boerne v. Flores, 521 U.S. 507, 534 (1997). By
making third-party harm, however slight, a complete
defense, a court substitutes that single interest for a
statutory standard prescribed by Congress to “strik[e]
sensible balances between religious liberty and
competing prior governmental interests.” Gonzales v.
O Centro Espirita Beneficente Uniao do Vegetal, 546
U.S. 418, 436 (2006) (quoting 42 U.S.C. 2000bb(a)(5)).
And by denying a RFRA claim whenever a regulation
is framed as an entitlement that benefits third parties,
making any religious accommodation a denial of the
entitlement and thus a “harm,” the statute becomes
“meaningless.” Hobby Lobby, 573 U.S. at 729 n.37.6
3. Nor does the Establishment Clause require
a consideration of third-party harm for every RFRA
claim. The decision below quotes Cutter for the principle
that “courts must take adequate account” of third-party
burdens. App. 45a (quoting Cutter, 544 U.S. at 720). But
6. Elevating third-party harm as a bar to RFRA claims
could dilute the application of strict scrutiny elsewhere in federal
law. Since claims under RFRA must be “adjudicated in the
same manner as constitutionally mandated applications of the
test,” O Centro, 546 U.S. at 430, misreading the statute could
misdirect courts into depriving strict scrutiny of its potency
under the Constitution. Freedom of speech would be an obvious
casualty. If harmful speech no longer deserved protection, the
First Amendment’s protections would be diminished. See Snyder
v. Phelps, 562 U.S. 443, 458–61 (2011) (demonstration near
serviceman’s funeral protected); Gertz v. Robert Welch, Inc., 418
U.S. 323, 352 (1974) (defamatory speech protected).

18
the court of appeals took this line out of context. Cutter
refers to third-party harm to explain why the Religious
Land Use and Institutionalized Persons Act (RLUIPA)
is consistent with the Establishment Clause—not to
require a consideration of third-party harm in every
case involving a religious accommodation. Specifically,
Cutter explains that RLUIPA is valid because it
“alleviates exceptional government-created burdens on
private religious exercise.” 544 U.S. at 720.
The same can be said of RFRA. It resembles other
statutory exemptions sustained on the principle that
when a general regulatory or tax law imposes a burden
on a religious belief or practice, lawmakers may lift
that burden without violating the Establishment
Clause even if doing so burdens others. See, e.g., Corp.
of the Presiding Bishop of The Church of Jesus Christ
of Latter-day Saints v. Amos, 483 U.S. 327 (1987) (a
religious exemption for employers in Title VII does not
violate the Establishment Clause). See generally Carl
H. Esbeck, Do Discretionary Religious Exemptions
Violate the Establishment Clause?, 106 Ky. L.J. 603,
604 (2018) (“In an unbroken line of cases now spanning
a century, the Supreme Court of the United States
has ten times rejected the argument that a religious
exemption in a larger regulatory or tax framework
is an advancement of religion in contravention of the
Establishment Clause.”).
Neither Cutter nor the Establishment Clause
supports the Third Circuit’s determination to elevate
third-party harm into an outcome-determinative
consideration. RFRA is a valid religious exemption
that lifts government-imposed burdens from religious

19
entities, much as the laws did in Cutter and Amos.
RFRA addresses the problem of third-party harm
through application of the strict scrutiny standard,
which balances any claim for a religious accommodation
against competing government interests—including its
interest in avoiding or mitigating third-party harm.
The Establishment Clause demands nothing more.
B. The decision below threatens the integrity of
RFRA within the Third Circuit—and elsewhere.
The errors infecting the decision below will not
only affect the disposition of RFRA claims brought by
religious employers seeking relief from the contraceptive
mandate. As a circuit precedent, the decision below
will frustrate many a religious believer or institution
seeking the protection that RFRA was enacted to
provide.
Nor will the harm remain within the Third Circuit.
By entrenching an objectionable strain of pre-Zubik
precedent, the decision below already appears to be
encouraging other lower courts to follow its example:
♦ Only two weeks ago, the Ninth Circuit cited Third
Circuit precedent and followed its interpretation
of RFRA’s substantial burden test in another
decision enjoining the final rule. California v.
U.S. Dep’t of Health & Human Servs., Nos. 1915072, 19-15118, 19-15150, 2019 WL 5382250,
at *11 (9th Cir. Oct. 22, 2019) (citing Real Alts.,
867 F.3d at 356 n.18). Two circuits have now
affirmed sweeping injunctions blocking the final
rule based, in part, on the same defective reading
of RFRA.

20
♦ A federal district court in Texas cited Real
Alternatives along with the Third Circuit’s
vacated decision in Geneva College in ruling that
an employee did not suffer a substantial burden
to his religious exercise under RFRA when
required to contribute to a health care plan that
included contraceptive coverage. See Dierlam v.
Trump, No. 4:16-CV-307, 2017 WL 7049573, at
*5–6 (S.D. Tex. Nov. 21, 2017) (citing Real Alts.,
867 F.3d at 356; Geneva Coll., 778 F.3d at 442),
appeal docketed, No. 18-20440 (5th Cir. July 10,
2018).
♦ A member of the A rizona Supreme Court
has cited the decision below and other Third
Circuit precedent for the principle that RFRA’s
substantial burden test presents “a legal
question for the courts rather than a factual
question determined by the sincerity of a person’s
religious beliefs and the existence of penalties
for exercising those beliefs in a manner that
violates a law.” Brush & Nib Studio, LC v. City
of Phx., 448 P.3d 890, 939 (Ariz. 2019) (Timmer,
J., dissenting) (citing Penn. v. President U.S., 930
F.3d 543, 572 n.28 (3d Cir. 2019); Real Alts., 867
F.3d at 356).
These decisions show that the decision below is
already influencing other courts to reject RFRA’s
text and this Court’s precedents. With such serious
implications for the integrity of RFRA as a bulwark
of religious freedom, the questions presented holds
genuine national importance.

21
***
Review is imperative. Not only does the Third
Circuit’s decision conflict with Zubik and Hobby Lobby,
it threatens to reduce one of America’s leading civil
rights laws to virtual impotence. RFRA was enacted
to protect the exercise of religion as one of the Nation’s
highest values. But the decision below adopted a
grudging interpretation of the statute that will, unless
reversed, too often deny protection for religious people
and institutions. Only this Court’s intervention can
ensure that RFRA remains a meaningful security for
religious freedom.
CONCLUSION
The Court should grant the petition.
Respectfully submitted,
A lexander Dushku
R. Shawn Gunnarson
Counsel of Record
James C. Phillips
K irton | McConkie
36 South State Street, Suite
1900
Salt Lake City, Utah 84111
(801) 328-3600
sgunnarson@kmclaw.com
Counsel for Amici Curiae
November 1, 2019

